August 27, 2008

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT:         Audit Report – Vehicle Management – National Trailer Lease Renewal –
                 Eastern Area (Report Number NL-AR-08-005)

This report presents the results of our nationwide audit of the National Trailer Lease
renewal.1 The objectives of our self-initiated audit were to determine whether the
renewal was effective and economical (Project Number 07XG007NL003). This report
focuses on trailer lease requirements in the Eastern Area. Click here to go to Appendix
A for additional information about this audit.

Conclusion – National Trailer Fleet Management

We determined the National Trailer Lease renewal was not as effective and economical
as it could have been because the Eastern Area did not have a comprehensive
management plan in place to accurately identify its trailer requirements, track and
ensure proper trailer use, and adjust trailer inventory based on continued need.

As a result, the U.S. Postal Service incurred about $249,000 in unnecessary lease costs
over a 6-month period. We estimate the Postal Service could save about $3.9 million in
lease costs over the next 10 years if the Eastern Area improves its processes for trailer
fleet management and returns unneeded trailers. Click here to go to Appendix B for our
detailed analysis for this topic. Click here to go to Appendix C for our monetary impact
calculation.

We recommend the Vice President, Eastern Area Operations:

1. Develop a comprehensive process to identify trailer requirements and manage trailer
   inventory and use, including installing satellite tracking devices on trailers.

2. Analyze the number of trailers needed to transport mail and equipment and return
   unneeded trailers to Postal Service Headquarters for reallocation or return to the
   leasing contractor, saving the Postal Service about $3.9 million over the next 10
   years.


1
 On July 1, 2006, the Postal Service signed a renegotiated 6-year lease renewal of the September 2000 National
Trailer Lease with Transportation International Pool (TIP), Inc., a wholly-owned trailer and equipment leasing
subsidiary of General Electric Company.
Vehicle Management – National Trailer Lease Renewal –                   NL-AR-08-005
 Eastern Area


3. Analyze storage requirements and procure storage space in the most cost-effective
   manner.

Management’s Comments

Management agreed with our findings and recommendations. They stated they would
solidify procedures for managing trailer inventory using satellite tracking devices and the
Vehicle Performance and Tracking System. In addition, management stated they have
returned 135 trailers to the National Trailer Lease supplier effective July 1, 2008, and
reduced the number of storage trailers in the Eastern Area by 79 since April 2008. They
also agreed to continue to evaluate storage requirements. However, management did
not agree with the total monetary impact. Instead, they agreed to $1,531,943 as funds
put to better use, which represents the projected monetary impacts through the end of
the current contract period of July 1, 2012. Management’s comments, in their entirety,
are included in Appendix D. Click here to view management’s comments.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and the corrective actions should
resolve the issues identified in the report. Management agreed to the monetary impact
of funds put to better use only through the end of the current National Trailer Lease
contract period. However, our calculations were based on the facts that the Postal
Service will continue to need trailers beyond the current contract period; and the
weakness we identified is with the Postal Service’s management of the trailer fleet, not
with the contract itself, so the weakness would not be corrected by a new contract after
2012. Therefore, we consider our calculations and projections valid for the 10-year
period, and will report $4,135,496 in monetary impact in our Semiannual Report to
Congress, including $248,779 in questioned costs and $3,886,717 in funds put to better
use.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that they can be
closed.




                                                   2
Vehicle Management – National Trailer Lease Renewal –                 NL-AR-08-005
 Eastern Area


We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Jody Troxclair,
Director, Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Cynthia F. Mallonee
    Lynn Forness
    Katherine S. Banks




                                                   3
Vehicle Management – National Trailer Lease Renewal –                               NL-AR-08-005
 Eastern Area


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

During fiscal year (FY) 2000, the U.S. Postal Service began a major, multiphased
corporate initiative to terminate local trailer contracts, centralize trailer acquisition at
Postal Service Headquarters, and commit to a single national contractor.

Initial National Trailer Lease – In September 2000, the Postal Service signed a National
Trailer Lease contract for 4,475 trailers with TIP, Inc., a wholly-owned trailer and
equipment leasing subsidiary of General Electric Company.




           The Postal Service uses a unique numbering system for TIP “National Trailer Lease”
               trailers it assigns to facilities. These trailers, beginning with the numbering
            sequence “19Z,” were photographed at the Philadelphia Bulk Mail Center (BMC) on
                                                October 10, 2007.
The anticipated cost of the 12-year contract plus the renewal option was more than
$201 million. The new, centralized national contract would:

   •   Reduce the average cost to lease a trailer xxxx xxxxxx xx xxxxxx xxx xxx.

   •   Potentially save the Postal Service more than $2.2 million annually.

   •   Provide the flexibility to have trailer inventory only when and where trailers are
       needed because unneeded trailers could be returned to the leasing contractor.

National Trailer Lease Renewal – On July 1, 2006, the Postal Service signed a
renegotiated 6-year lease renewal. The new agreement reduced the lease cost to
xxxxxx xxx xxxxxxx xxx xxx and was intended to:

   •   Improve inventory controls by requiring the leasing contractor to install satellite
       tracking devices on all trailers by November 1, 2006.



                                                   4
Vehicle Management – National Trailer Lease Renewal –                    NL-AR-08-005
 Eastern Area



   •   Save money by allowing the Postal Service to return unneeded trailers.

Under the National Trailer Lease, Postal Service officials allocated 508 trailers to the
Eastern Area, which subsequently assigned 80 to the Pittsburgh BMC; 104 to the
Philadelphia BMC; and 115 to the Cincinnati BMC. The remaining trailers were
allocated among 10 other Eastern Area facilities.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our nationwide audit were to determine whether the National Trailer
Lease renewal was effective and economical. Although this is a nationwide audit, we
used a regional approach because individual Postal Service areas control the National
Trailer Lease fleet. This report is the sixth in a series of reports and focuses on the
Eastern Area.

During our work, we interviewed Postal Service officials at headquarters and in the
Eastern Area and visited the Cincinnati, Philadelphia, and Pittsburgh BMCs and other
facilities in the Eastern Area. We observed and photographed operations, inspected
trailers, interviewed supervisors and employees, and examined Postal Service policies
and procedures. We used computer-assisted analysis techniques to examine computer
data in management’s Transportation Information Management Evaluation System for
the period June 1, 2005, through March 17, 2008.

In addition, we collected and examined yard management reports and information on
trailers that were out of service for repairs. We did not audit or comprehensively
validate the data; however, several control weaknesses constrained our work. For
example, some computer records had missing or inaccurate data. Although data and
other limitations constrained our work, we compensated by applying alternate audit
procedures such as examination of source documents, observation, physical inspection,
and discussions with appropriate officials.

We examined the National Trailer Lease and other relevant Postal Service documents
and records. We discussed our conclusions and observations with management
officials throughout our audit and included their comments where appropriate.

We conducted work associated with this performance audit report from July 2007
through August 2008 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform audit work to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
discussed our observations and conclusions with management officials on June 24,
2008, and included their comments where appropriate.




                                                   5
Vehicle Management – National Trailer Lease Renewal –                         NL-AR-08-005
 Eastern Area


PRIOR AUDIT COVERAGE

The OIG has worked with the Postal Service to improve vehicle management and
reduce vehicle costs. As indicated by the chart below, since April 2005, we have issued
five audit reports that identified potential trailer lease savings exceeding $14 million.
The reports addressed vehicle management weaknesses similar to those identified in
this report.

             Report Title                       Report       Final Report           Monetary
                                                Number           Date                Impact
                                                                                  (In millions)
Vehicle Management – National
Trailer Lease – Unresolved Audit             NL-MA-05-001    April 21, 2005       Not applicable
Recommendations
Vehicle Management – National
Trailer Lease – A.T. Kearney, Inc.           NL-ID-06-002   February 7, 2006      Not applicable
Analysis
Vehicle Management – National
                                                             September 29,
Trailer Lease Requirements – Capital         NL-AR-06-013                              $1.9
                                                                 2006
Metro Area
Vehicle Management – National
Trailer Lease Renewal – Southwest            NL-AR-07-005    June 15, 2007             $4.8
Area
Vehicle Management – National                                September 28,
                                             NL-AR-07-009                              $7.5
Trailer Lease Renewal – Pacific Area                             2007




                                                   6
Vehicle Management – National Trailer Lease Renewal –                                                                      NL-AR-08-005
 Eastern Area


                                                             APPENDIX B: DETAILED ANALYSIS

National Trailer Fleet Management – Eastern Area

We concluded the National Trailer Lease renewal was not as effective and economical
as it could have been, because the Eastern Area BMCs had more trailers than needed.
Of the 508 trailers leased in the Eastern Area, 299 were assigned to the BMCs, and the
remaining 209 trailers were allocated to 10 other facilities in the Eastern Area. Our
analysis did not reveal material underutilization of trailers at the 10 other facilities.

However, in analyzing the use of BMC trailers, we identified the maximum number of
trailers used at each of the three BMCs2 during the period October 2007 through mid-
March 2008 and found the following.

      •    78 (68 percent) of the 115 trailers leased at the Cincinnati BMC were used for
           their intended purpose – to move mail.

      •    52 (50 percent) of the 104 trailers leased at the Philadelphia BMC were likewise
           used to move mail.

      •    34 (43 percent) of the 80 trailers leased at the Pittsburgh BMC were likewise
           used to move mail.

                                                            Eastern Area Bulk Mail Center TIP Trailer Highest Day
                                                                    Utilization From 10/2/2007 - 3/17/2008

                                                        120
                            Number of Leased Trailers




                                                                         37

                                                            80                                52

                                                                                                                46

                                                            40           78
                                                                                              52
                                                                                                                34

                                                        -
                                                                 Cincinnati BMC     Philadelphia BMC Pittsburgh BMC
                                                                   (115 Leased)       (104 Leased)      (80 Leased)
                                                                  Number of Trailers Not Used on Highest Utilization Day
                                                                  Number of Trailers Used on Highest Utilization Day



We concluded that the remaining 135 trailers, or more than 26 percent of the
508 trailers currently allocated to the Eastern Area, were not needed to move mail. We
estimated the Postal Service incurred about $249,000 to lease the unneeded trailers
over a 6-month period. We estimate the Postal Service could save about $3.9 million
by improving its processes for trailer fleet management and taking advantage of the


2
    These numbers represent the highest day of utilization during the approximate 6-month period analyzed.



                                                                                          7
Vehicle Management – National Trailer Lease Renewal –                                                   NL-AR-08-005
 Eastern Area


lease provisions that allow the Postal Service to return unneeded trailers. Click here to
go to Appendix C for detailed calculations.

Postal Service general investment policy states that requirements must be documented
in detail so that approving officials can make informed procurement decisions. Further,
in justifying the need for the National Trailer Lease Renewal contract, management
stated that the centralized national contract would provide the flexibility to have trailer
inventory only when and where trailers were needed because unneeded trailers could
be returned to the leasing contractor.

The Eastern Area had excess trailers because it did not have a comprehensive process
for identifying trailer requirements, tracking trailers, and ensuring their proper use.
Local managers identified control weaknesses and stated:

    •    Many trailers left the Eastern Area for use in other areas and were not returned.

    •    Numerous leased trailers were used to store equipment.

    •    Although global positioning system (GPS) tracking devices were installed in
         some trailers, many trailers still did not have GPS devices approximately 21
         months after the scheduled due date of November 1, 2006.

We also determined that although the National Trailer Lease was intended to provide
trailers to meet transportation requirements, the Eastern Area had too many
roadworthy3 national lease trailers being improperly used for storage. For example, the
Philadelphia and Pittsburgh BMCs reported that combined, they were using nearly 90
trailers, or almost 50 percent of their leased fleet, for this purpose.




                                       Stored equipment at the Lancaster
                               Processing and Distribution Center, October 9, 2007.



3
  Roadworthy trailers are trailers that meet or exceed Postal Service and national safety standards for use in
transporting mail and pose no safety threat to the general public.



                                                           8
Vehicle Management – National Trailer Lease Renewal –                        NL-AR-08-005
 Eastern Area


A Postal Service Headquarters policy letter dated August 11, 2004, requires that trailer
storage requirements must be analyzed and validated and stipulates that Postal Service
policy is to fill storage requirements with non-roadworthy trailers at lower rates.

The trailers were being improperly used for storage because the Eastern Area did not
have a comprehensive process to identify trailer storage requirements. The practice of
storing equipment in trailers leased for transportation was unneeded and costly.




                                                   9
Vehicle Management – National Trailer Lease Renewal –                                         NL-AR-08-005
 Eastern Area


                                                    APPENDIX C: ESTIMATED SAVINGS

                                                    Unneeded Trailers – Questioned Costs

                                                                           Cincinnati       Philadelphia         Pittsburgh
                                                                             BMC                BMC                 BMC         Total

               Leased Trailer Count                                              115               104              80           299
               Less: Number of Trailers Utilized on Highest Day                  78                52               34           164
               Number of Trailers that Should Have Been
               Returned to the Vendor During 6-month Period                       37               52               46           135

               $10.07 per day* × 135 trailers x 183 days** = $248,779
               Total missed opportunity to save costs =      $248,779
                       * Daily lease rate = $10.07 per day
                      ** Day count from October 2007 – March 2008 = 183 days


                                                             Funds Put to Better Use

 Projection
                   0             1         2            3         4               5          6             7             8        9          10        Total
    Year
 Fiscal Year     2008          2009       2010        2011       2012            2013       2014          2015        2016       2017       2018

    Lease
                       $0     $454,849   $496,199    $496,199   $496,199        $496,199   $496,199      $496,199    $496,199   $496,199   $496,199   $4,920,643
   Amount

 Discounted
                       $0     $435,263   $454,385    $434,818   $416,094        $398,176   $381,029      $364,621    $348,920   $333,895   $319,516   $3,886,717
  Amount

  Total Expenditure         $4,920,643

  Net Present Value         $3,886,717

Indemnity at 1/12 of annual rate = $41,350
(Deducted from year 1 savings only)
Discount rate @ 4.5 percent
Note: The analysis above does not include any additional costs that may be incurred to find alternatives for storage of mail equipment.


                                                                           10
Vehicle Management – National Trailer Lease Renewal –      NL-AR-08-005
 Eastern Area

                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                  11
Vehicle Management – National Trailer Lease Renewal –   NL-AR-08-005
 Eastern Area




                                                  12
